Record Press Inc., 229 West 36th Street, New York, N.Y. IDDIB•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.
SS:

88150

AFFIDAVIT OF SERVICE

COUNTY Of NEW YORK
Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 20th day of August 2021 deponent served 3 copies of the within
BRIEF FDR AMICUS CURIAE CENTER FDR CONSTITUTIONAL RIGHTS
IN SUPPORT OF RESPONDENTS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Christopher W. T□ mpkins
Betts. Patterson 6 Mines. P.S.
7□ 1 Pike Street Suite 1400
Seattle. WA 881 □ I

Elizabeth 8. Prelogar
Acting Solicitor General
United States Department of Justice
85□ Pennsylvania Avenue. NW
Washington. OC 2053 □-□□□ I

(2 □ 8)-282-8888

(2 □ 2)-514-2217

Attorneys for Petitioner

Attorneys for Respondent

David Franklin Klein
Pillsbury Winthrop Shaw Pittman LLP
1200 17th Street NW
Washington. DC 20036
202-663-8000

Attorneys for Respondent

I. Edward Gutowski. declare under penalty of perjury under the laws of the United States of America that the foregoing is true
and correct. executed on August 2 □. 2021. pursuant to Supreme Court Rule 28.5(c). All parties required to be served. have been
served.
Edward Gutowski
Sworn to me this

August 2□. 2021
Jasmine Williams
Notary Public. State of New York
No. □ IOSSIDl3SS
Uu lified in Uueens County
Cammi on Expires SeptemberlS. 2023

Case Name: United States v. Zubaydah
Docket/Case No. 20-827

